IN THE SUPREME COURT OF THE UNITED STATES

HERNDON, DAWN
Petitioner
vs.

No:

20-1556

JUDY R. UPTON, WARDEN
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
May 13, 2021
cc:
KENNETH A. CARUSO
MUKASEY FRENCHMAN LLP
TWO GRAND CENTRAL TOWER
140 EAST 45TH STREET
NEW YORK, NY 10017
VIRGINIA CHAVEZ ROMANO
WHITE & CASE LLP
1221 AVENUE OF THE AMERICAS
NEW YORK, NY 10020

